                               SENSITIVE BUT UNCLASSIFIED





                   UNITED STATES DEPARTMENT OF STATE

               AND THE BROADCASTING BOARD OF GOVERNORS

                              OFFICE OF INSPECTOR GENERAL


ISP-I-14-06                                    Office of Inspections                                     March 2014




              Inspection of the Bureau of

          Conflict and Stabilization Operations





IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED

                           SENSITIVE BUT UNCLASSIFIED




                   PURPOSE, SCOPE, AND METHODOLOGY

                          OF THE INSPECTION


        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

        The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •	 Policy Implementation: whether policy goals and objectives are being effectively
      achieved; whether U.S. interests are being accurately and effectively represented; and
      whether all elements of an office or mission are being adequately coordinated.

   •	 Resource Management: whether resources are being used and managed with maximum
      efficiency, effectiveness, and economy and whether financial transactions and accounts
      are properly conducted, maintained, and reported.

   •	 Management Controls: whether the administration of activities and operations meets the
      requirements of applicable laws and regulations; whether internal management controls
      have been instituted to ensure quality of performance and reduce the likelihood of
      mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
      steps for detection, correction, and prevention have been taken.

METHODOLOGY

         In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                            PREFACE


        This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

        The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                         ii
                            SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



                               Table of Contents

Office of Inspector General                               ii

Key Judgments                                             1

Context                                                   2

Executive Direction                                       4

   Mission                                                4

   Organizational Structure                               6

   Leadership                                             8

   Morale                                                 8

   Equal Employment Opportunity                           9

Policy and Program Implementation                        11

   Engagement Teams                                      11

Resource Management                                      16

   Management Support                                    16

   Grants Management                                     17

   Travel                                                18

   Records Management and Clearance Process              19

   Human Resources                                       21

   Training                                              21

   Facilities                                            21

Management Controls                                      23

   Purchase Cards                                        23

   Management of Contractors                             23

Information Technology Management                        26

   Information Technology Strategic Planning             26

   Information Technology Management and Staff           26

   Information Management and Security Documentation     28

   Information Technology Consolidation                  28

   Information Technology Equipment for Deployed Teams   29

   Information Systems Security Officer Duties           30

   Web Site/SharePoint Sites Management                  30

   Civilian Response Network Database                    31

Security Management                                      32

   Bureau Security Officer Support                       32

List of Recommendations                                  34

List of Informal Recommendations                         38

Principal Officials                                      39

Figure 1 - Bureau Organization                           40

Abbreviations                                            41





                                    iii

                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Key Judgments

•	 The mission of the Bureau of Conflict and Stabilization Operations remains unclear to some
   of its staff and to many in the Department and the interagency. The bureau was established in
   2011 but there remains a lack of consensus on whether coordination, analysis, or operations
   should dominate its mission.

•	 While the bureau is charged with coordinating a “whole of government approach” to address
   conflict, it has yet to develop effective mechanisms for broad-based interagency
   coordination.

•	 Overseas operations known as “engagements” dominate the bureau’s agenda. The bureau’s
   current organizational structure limits their efficiency.

•	 Bureau practices violate basic Department regulations and procedures in several areas,
   including security, travel and hiring. Procedural and physical security programs require
   prompt attention.

•	 The bureau does an inadequate job managing its large contingent of contractors. The
   inspection uncovered weaknesses in oversight, performance of inherently governmental
   functions, and incomplete contracting officer’s representative files. [Redacted] (b) (5)


•	 The information technology group suffers from weak direction. The group has not
   documented fundamental policies and procedures. The bureau’s Web site and SharePoint site
   require improvement.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

This inspection took place in Washington, DC, between October 18 and December 16, 2013.
Ambassador Mary Yates (team leader), Tom Allsbury (deputy team leader), Craig Cheney,
Karen Davidson, John Dinger, Boyd Doty, Chris Mack, Vandana Patel, Ashea Riley, Terry
Rusch, and Alex Vega conducted the inspection.




                                       1
                           SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED




Context 

         The origins of the Bureau of Conflict and Stabilization Operations (CSO) lie within the
former Office of the Coordinator for Reconstruction and Stabilization (S/CRS). S/CRS was
created in 2004 in response to the U.S. Government’s experiences in Iraq and Afghanistan,
which demonstrated a need for improved coordination between civilian organizations and the
U.S. military before, during, and after armed conflict. National Security Presidential Directive 44
(NSPD-44), signed by the President in December 2005, set forth S/CRS’s responsibilities. These
responsibilities were codified into law, 1 which also authorized the creation of the Civilian
Response Corps (CRC), a group of Federal employees and volunteers from the private sector,
state, and local governments, trained and equipped to deploy rapidly to countries in crisis, or
emerging from a conflict to provide reconstruction and stabilization assistance.

        CSO was created in November 2011, as directed by the 2010 Quadrennial Diplomacy and
Development Review (QDDR), 2 to replace S/CRS and be “the institutional locus for policy and
operational solutions for crisis, conflict, and instability” as a whole of government endeavor. 3
CSO is one of eight bureaus and offices that report to the Under Secretary for Civilian Security,
Democracy, and Human Rights. The Under Secretary position was vacant for much of 2013—
the second half of CSO’s 2-year existence.

        CSO pursues its mission of driving “…efforts to address the urgent challenges of
violence and conflict in priority places”4 through conflict analysis, strategic planning, and
support of locally-driven initiatives to break cycles of violent conflict. CSO assesses the global
conflict landscape, hosts tabletop exercises, and deploys teams into conflict areas. Some of its
recent efforts, which it refers to as “engagements,” include Kenya, where in 2013 it worked with
the U.S. Agency for International Development’s (USAID) Bureau for Democracy, Conflict, and
Humanitarian Assistance, Office of Transition Initiatives, to help prevent a repeat of 2007
election violence; Burma, where it is promoting reconciliation and peace through a cooperative
landmine eradication initiative; and Honduras, where it assists the Honduran Government and
civil society in reducing criminal violence. Since early 2012, a major CSO effort has been
engaging with Syria’s moderate opposition to promote cohesion and resilience and to build
capacity for civil administration and transition.

        CSO has struggled to establish its role within the Department and the interagency, as
described in the QDDR, the unrescinded NSPD-44, and associated legislation. A 2007 OIG
inspection of S/CRS cited similar “identity problem” issues within the Department and the
interagency. Foundational documents assign CSO interagency authorities and responsibilities to

1
  Title XVI of Public Law 110-417.

2
  The QDDR was a Department study, begun in 2009 and published in 2010, which was intended to be done every 4

years. Reportedly, the Secretary’s Policy and Planning Staff (S/P) has begun work on the next iteration, which is due

in spring 2014.

3
  Quadrennial Diplomacy and Development Review, pages 135 - 138.

4
  CSO Intranet Website


                                             2
                                 SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


perform a coordination role. NSPD-44 mandates that the Coordinator for Reconstruction and
Stabilization, now the Assistant Secretary for CSO, coordinate interagency processes to identify
states at risk for instability, lead interagency planning to prevent or mitigate conflict, develop
detailed contingency plans, and provide detailed options for an integrated response to conflicts. 5
In addition, the QDDR charged CSO with expanding and refining the capacity of the existing
multiagency CRC to develop a strong civilian response capability, including surge capabilities,
to ensure that the United States can respond to conflicts quickly and effectively. The QDDR
states, “The United States must move from the rhetoric of multiagency response to its reality.”6

        CSO has been successful in some areas. Regional bureaus and embassies value its
assistance facilitating interagency discussions and providing talented staff to fill in gaps. They
also value some of CSO’s overseas programming activities. However, CSO has not clearly
defined and articulated its mission to those outside the bureau and even to some of its own staff.
It has not fully established itself in the Department or the interagency as the locus for policy and
operational solutions for conflict and instability. It has diminished, rather than enhanced, a
whole-of-government approach and, with few exceptions, most notably Syria, it has not engaged
in recognized high-priority conflicts of national security interest.




5
    NSPD-44, “Responsibilities of the Department of State,” Sections (3) and (4)
6
    Quadrennial Diplomacy and Development Review, page 140.

                                               3
                                   SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Executive Direction

        The bureau inherited a difficult legacy and an uncertain funding future. This first
inspection of CSO occurred 2 years after its creation and 18 months after the confirmation of its
first Assistant Secretary. The bureau’s leadership brought energy and new ideas to the task of
reshaping the capability of the U.S. Government to prevent or mitigate conflict. The QDDR
encouraged CSO to adopt an organizational culture that “values calculated risk taking, dynamic
problem solving, and innovation.” It directs CSO to “link this instrument of political crisis
response with the Department’s diplomatic and crisis operations.” CSO’s leadership has
encouraged its staff to take advantage of the new possibilities for engagement that the QDDR
fostered and to think outside the box, which sometimes takes it outside Department regulations
and practices.

        The process of building a new bureau, while simultaneously dismantling a substantial
component of its predecessor’s infrastructure, has blurred understanding within the Department
and interagency of CSO’s role and mission. At this stage in its development, CSO needs
assistance in defining its interagency coordination role in a whole-of-government approach to
conflict stabilization, as outlined in NSPD-44. Possible priorities where CSO can be most
valuable include building an expeditionary force; serving as the primary conflict prevention
analyst, planner, and consultant for the Department; and implementing programs.

         CSO has concentrated on a new role as program implementer in conflict situations, a role
it expanded in Syria. Despite playing a useful programming and operational role in some
locations, this effort has at times overlapped with the missions of other U.S. Government entities.
For example, other Department bureaus, including Democracy, Human Rights, and Labor and
International Narcotics and Law Enforcement, have well established mandates to support free
and fair elections and professional law enforcement. As with other functional bureaus, CSO
needs to establish its area of special expertise. For example, serving as the interagency hub or
convener on conflict resolution could be a major strength for CSO. Some senior Department
managers and interagency partners agree that CSO served a useful role leading the interagency
effort with USAID and Embassy Bujumbura that produced a plan to mitigate risks of atrocities in
Burundi, and in recommending actions for the U.S. Government to the Atrocities Prevention
Board.

Mission

         The QDDR gave CSO a mandate to develop a new model “for engagement in conflict at
a time of reduced budgets and a waning political appetite for large-scale intervention.” CSO’s
stated goals when establishing the bureau were to “Get ahead of change; drive an integrated
response; and leverage partnerships.” With the arrival of its Assistant Secretary, CSO took
significant steps to change the former S/CRS business model in an effort to be more responsive
and selective in the engagements it pursued. CSO leadership dramatically reduced bureau staff
and consolidated those remaining into one location to foster cohesion and a shared sense of
mission.


                                        4
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        Although the QDDR directed the Department and USAID to “Expand and refine the
Civilian Response Corps’ active and standby capacity” and called for a two-year plan for
changes to accomplish this, the plan has yet to be developed. Rather, CSO moved in a different
direction. It eliminated the CRC model, which comprised U.S. Government specialists available
to deploy “just in case,” in favor of a model that engages non-governmental, international
organization, contract, and host-country actors who are available “just in time,” reportedly at
reduced costs. Some Federal agencies with staff assigned to the CRC believe this step was taken
without adequate interagency consultation at the policy level, despite numerous working- level
meetings. The OIG team heard from interagency partners that, by significantly reducing the CRC
without a developed plan for a successor, CSO ignored much of the direction laid out in the
QDDR and NSPD-44, especially its responsibility to promote a whole-of-government approach.

       Per the Foreign Affairs Manual (FAM),18 FAM 083.3(b), “It (CSO) works with the
National Security Staff and with the partner agencies of the CRC.” The last Interagency Policy
Committee meeting on crisis response was held in January 2011. OIG inspectors found no
evidence that CSO plays an interagency coordinating role for National Security Staff Interagency
Policy Committees related to conflict issues.

        The OIG team noted with concern that CSO seems to disregard important aspects of the
QDDR. The CRC’s planned replacement, the Civilian Response Network, is not fully
operational and does not include interagency representation. To date, CSO reports that 34 third-
party or personal services contractors, when actually employed retirees, and a few individuals in
other categories comprise this network. Many have been deployed with CSO engagements
overseas, including U.S. Marshals in Kenya, but this does not constitute a whole-of-government
approach.

        Congress has been interested in drawing upon the existing expertise of government
agencies to address conflicts. During his confirmation process, CSO’s Assistant Secretary-
designate received a question for the record from then-Senator John Kerry in which he asked
“…what steps will you take to ensure that a whole-of-government approach continues to be a
key element of the program?” The bureau responded that “CSO will seek to include the widest
possible range of partners, including the interagency, from the beginning of its engagements.”
CSO coordinates with USAID and other agencies for certain engagements but has not conducted
a Washington meeting with interagency partners since July 2012.

Recommendation 1: The Office of the Under Secretary for Civilian Security, Democracy and
Human Rights, in coordination with the Bureau of Conflict and Stabilization Operations and the
Office of the Legal Adviser, should define the meaning of “whole-of-government” approach to
conflict prevention and resolution. (Action: J, in coordination with CSO and L)

         Per the QDDR and Secretary Clinton’s January 2013 eighth policy guidance cable (18
FAM 081), CSO is to “serve as the institutional locus for policy and operational solutions for
crisis, conflict and instability.” The cable reaffirmed that conflict prevention and crisis response
is a core mission of the Department and listed CSO’s roles within the Department:


                                        5
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


1) to support posts and regional bureaus through conflict analysis, strategic planning, and
   operational support;
2) to assist embassies and bureaus to develop integrated strategies and plans that target causes
   of instability; and
3) to offer practical solutions including civilian experts and securing funding to support local
   initiatives.

         U.S. foreign policy interests rarely hinge on a single issue such as conflict or instability.
Within the Department, a regional bureau normally leads broad U.S. policy in a country or
region. The 2013 policy guidance cable spells out CSO’s responsibility to support other bureaus
and embassies while reaffirming that the CSO Assistant Secretary is the senior advisor to the
Secretary of State on conflict and instability. In this role, the Assistant Secretary is to provide
policy counsel on conflict prevention, response, and stabilization in coordination with the Office
of the Under Secretary for Civilian Security, Democracy, and Human Rights. CSO’s internal
Policy Office provides the Assistant Secretary subject matter expertise on key regional themes
and other issues as they relate to conflict such as gender, transitional governance, and civil
justice. CSO uses “big data” and simulation tools to analyze trends in violence over time to
develop scenarios and forecast outcomes.

        Despite CSO’s designated role related to conflict and instability, most bureaus remain
uncertain about CSO’s mission and are unaware of its analytical capabilities. Most bureaus
neither accept CSO’s role as a policymaker nor understand its role as policy advisor. In addition,
CSO’s new operational role as program implementer puts it in many of the same places as other
actors within the U.S. Government, which can create overlap and duplicate efforts, especially
with USAID. This was true with USAID’s Office of Transition Initiatives in Kenya and even
among the offices within the Office of the Under Secretary for Civilian Security, Democracy,
and Human Rights, such as the Bureau of International Narcotics and Law Enforcement in
Honduras.

       The planned 2014 QDDR provides an opportunity for CSO to review its mandate and to
define more clearly its role among Department bureaus and other agencies.

Recommendation 2: The Bureau of Conflict and Stabilization Operations, in coordination with
the Office of the Under Secretary for Civilian Security, Democracy, and Human Rights, should
update its mandate, mission, and goals and develop a strategic communication plan to update
bureaus, embassies, and agencies in advance of the 2014 Quadrennial Diplomacy and
Development Review. (Action: CSO, in coordination with J)

Organizational Structure

        CSO’s organizational chart, as shown in 1 FAM 471.2, does not fully reflect the way the
bureau functions. CSO uses an integrated staffing model in which staff across the bureau support
engagements in three operations offices. Staff from the Offices of Policy, Partnerships and
Strategic Communications, Learning and Training, and Programs and Integration, and sometimes
Management Support, are assigned to work on various engagements. Staff attend engagement
team meetings, develop program strategies and metrics, and, in some cases, deploy to the field.
                                         6
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


The current structure creates confusion and undermines efficiency as these staff, in effect, have
multiple supervisors. The arrangements strain supervisory relationships especially when loaned
staff deploy overseas for extended periods, maintaining regular contact with the operations office
or team, rather than with the individual’s home office. The constant flux and rotation of people
leads to confusion and can weaken the development of deep expertise. Elsewhere in the
Department, bureaus report that knowing whom to turn to in CSO on a given issue is a challenge,
given the ever-changing staff.

         Although the bureau is new and its organizational structure in frequent motion, CSO has
many relatively new, talented, and dedicated, staff who frequently impress bureaus and
embassies when deployed. The staff includes Foreign Service, Civil Service , fellows, and
contractors. They function in a chaotic atmosphere and sometimes lack familiarity with their
portfolios and the Department. The CSO front office promotes turnover among its staff to foster
innovation. This philosophy creates considerable job insecurity and uncertainty.

         Overseas deployments of 6 months or longer offer both opportunities and heavy
responsibilities. Deployment burnout is evident as reported in interviews with staff and personal
questionnaires, and the OIG team questions how long this model can endure. CSO created a
working group in September 2013 to identify and address challenges related to deployment, both
for individual employees and for the bureau staffing plan. Recommendations were expected in
January 2014. With the workload and bureau priorities centered around engagements, it is
essential that the bureau evaluate the effectiveness of its integrated approach to ensure that
resources and reporting structures contribute to the bureau’s overall efficiency and expertise.

Recommendation 3: The Bureau of Human Resources should direct the Office of Resource
Management and Organizational Analysis to perform an organization assessment of the Bureau
of Conflict and Stabilization Operations, including a workforce and workload analysis and a
review of similar functions performed by other bureaus in the Department. (Action: DGHR)

        The bureau is top-heavy. Its front office comprises the Assistant Secretary, a Civil
Service Senior Executive Service principal deputy assistant secretary, two noncareer deputy
assistant secretaries (DAS), a Senior Foreign Service DAS for administration, and two GS-15
senior advisors. In addition to the four DASes and two front office GS-15 advisors, CSO has 21
GS-15 and FS-01 positions.

         The two GS-15 senior advisors played key roles in the development of the new bureau. In
the bureau’s startup phase, both were involved in operations and extensive travel. Their role and
presence now contributes to an already top-heavy front office and translates into at least seven
senior leaders who task working-level staff. The lack of clear lines of authority can be
inefficient.

        A CSO Task Force memo establishing details of the new bureau, approved by the Under
Secretary for Management in October 2011, called for a review of the fourth DAS position
within two years. In that memo, The Office of Management Policy, Rightsizing, and Innovation
and the Bureau of Human Resources (DGHR) recommended a three-DAS structure, splitting the
duties of the DAS for Partnership and Learning among the other three proposed DAS slots. In
                                       7
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


addition, DGHR recommended regional designations for the operations teams. Upon the
departure of the remaining Foreign Service DAS, there will be no Senior Foreign Service officer
in the front office. The reduction of one DAS will begin to address the top-heavy front office
issue. It will also provide an excellent opportunity to realign the remaining DAS jobs and CSO’s
organizational structure along regional lines, as DGHR recommended.

Recommendation 4: The Bureau of Human Resources, in coordination with the Bureau of
Conflict and Stabilization Operations, should reduce the bureau’s front office staff to no more
than two deputy assistant secretary positions and the principal deputy, including one Senior
Foreign Service officer. (Action: DGHR, in coordination with CSO)

Leadership

        The Assistant Secretary's leadership resulted in some progress toward establishing new
directions for the bureau in a short time. There have been internal costs, however, as CSO
struggles from a lack of directional clarity, lack of transparency, micromanagement, and re-
organizational fatigue. The turnover of 54 percent of CSO staff between February 2012 and
August 2013 created widespread internal suspicion and job insecurity in addition to confusion in
the Department and the interagency. The new noncareer leadership arrived with fresh models and
analytics for conflict prevention and intervention, but some of them lacked basic understanding
of the roles, responsibilities, and workings of the Department, especially of the regional and
functional bureaus they are tasked to support.

       The Assistant Secretary sought to demonstrate the bureau’s value to senior leaders in the
Department and Congress in the bureau’s first year of operation. His early focus has been for
CSO to operate where it can, rather than where it should. Relatively few of the bureau’s
engagements to date have been in places or on issues of significant foreign policy importance.

         In addition, the Assistant Secretary and several of his deputies promote a culture of
bending and evading rules. For example, the OIG team heard in multiple interviews that CSO
leadership loosely interpreted the level of bureau or embassy support for certain of its activities,
arguing that doing so is justified by the urgent nature of its work and need to build a more
innovative and agile bureau. Interviewees gave examples of disregard for the Department's
procedures, [Redacted] (b) (5)
                                 This laxity contributed to low staff scores for morale and
leadership of some in the front office. The perceived CSO attitude that it does not have to follow
rules is cited by some bureaus and ambassadors as reasons they seek to avoid working with CSO.
The Assistant Secretary needs to lead by example and ensure that the deputies do the same.

Morale

         OIG's pre-inspection survey results reflected lower than normal morale among bureau
staff, in terms of both personal and office morale. Ninety-six percent of CSO staff who
completed personal questionnaires responded to questions on morale. The bureau average for
office morale was 2.75 and for personal morale 3.09, on a 5-point scale. Bureau leadership
sought to attribute these low scores to dissatisfaction among former S/CRS staff who, due to
                                        8
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


reorganization and other changes, perceived themselves as marginalized in the new bureau. The
OIG team found that dissatisfaction was more widespread than this explanation suggested.

        Comments on morale in the personal questionnaires cited many factors behind low
bureau morale. The most common included cramped office space/lack of privacy (cited by 20
percent of the respondents); too many reorganizations and physical moves; pressure from senior
management (including the Assistant Secretary and deputies) to bend, force, or evade
Department regulations and hire favored candidates; top management’s philosophy of “churn” to
prevent people staying in CSO for more than 3 years; lack of clear communication or
inconsistent application of policies; shifting priorities; fear of retribution from senior
management; and the residual impact of the reorganization and layoffs during the creation of
CSO.

        Respondents who described morale as good cited opportunities for personal and
professional development, supervisors’ openness to new ideas, a feeling of usefulness, belief in
the bureau’s mission, and talented colleagues.

        The status of the former S/CRS staff and the impact the reorganization had on them
merits attention. Although some have been promoted to leadership positions, surveys and
interviews with other S/CRS staff indicate they feel they are treated shabbily, are encouraged to
leave because they no longer fit the organization’s new needs, and are not valued. CSO
leadership needs to find ways to address these perceptions.
        .
Equal Employment Opportunity

         CSO had a significant number of Equal Employment Opportunity (EEO) complaints in
the last year. Six informal complaints were submitted to the Office of Civil Rights, but were not
pursued to formal complaints. One formal complaint was pending. The per capita rate of
informal complaints from direct-hire employees is five times the Department average.
Improvements in leadership, morale, and EEO issues will strengthen the bureau’s ability to
concentrate on its primary role preventing and mitigating conflict.

Recommendation 5: The Office of Civil Rights, in coordination with the Bureau of Conflict
and Stabilization Operations, the Bureau of Human Resources, and the Foreign Service Institute,
should develop a tailored leadership management seminar for mandatory attendance by the front
office team. (Action: S/OCR, in coordination with CSO, DGHR, and FSI)

        CSO has two EEO counselors who have completed counselor training. During the
inspection, CSO published the names and contact information for these counselors, as well as
procedures to initiate a complaint, and created an EEO bulletin board at the bureau entrance.

         Seventy percent of the bureau staff completed a personal questionnaire. About 14 percent
addressed discrimination or harassment. Of these, several asserted there is no discrimination
within CSO. However, a number said that there was a lack of diversity or evidence of favoritism
in hiring, and a few cited a hostile work environment or noted that they had initiated complaints.

                                       9
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

         The human resources section of CSO has been tracking the training of newly named
supervisors and managers. At the time of the inspection, all new supervisors and managers had
taken, or were scheduled to take, mandatory EEO training. However, human resources did not
have records to show whether existing managers and supervisors had taken mandatory training
or refresher training. In December 2012, CSO arranged for the Office of Civil Rights to conduct
supplemental EEO training, which 61 percent of the existing managers and supervisors attended.

        Guidance in 13 FAM 312 states that all employees are strongly urged to participate in
EEO/Diversity Awareness training every 5 years. Since CSO encourages turnover or “churn” in
its employee base, more new people are coming on board who need to be trained in EEO
principles. CSO should revitalize its EEO education program to demonstrate top-down support
and commitment to EEO principles.

Recommendation 6: The Bureau of Conflict and Stabilization Operations, in coordination with
the Office of Civil Rights, should issue a statement from the Assistant Secretary stressing
commitment to EEO principles; conduct onsite training on EEO principles and procedures for all
employees; and implement a mechanism to track EEO training. (Action: CSO, in coordination
with S/OCR)




                                       10
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Policy and Program Implementation
Engagement Teams

        CSO has made engagements its primary focal point. Engagements are designed to
prevent or mitigate conflict in specific locations. One of three operations offices manages each
engagement. Engagement teams include staff from operations offices, Office of Policy, Office of
Partnerships and Strategic Communications, Office of Programs and Integration, and Office of
Learning and Training. Engagement teams discuss with stakeholders conflict dynamics, stage
table top exercises, design and implement engagements, provide surge capacity to
underresourced embassies, and manage programs implemented by entities the bureau funds.

Current Engagement Activities

        CSO manages engagements in several countries including Honduras, Burma, Nigeria,
Senegal, and Bangladesh. The engagement in Honduras has been an ambitious undertaking by
CSO since 2011; its goal is to enhance civilian security by reducing violent crime. The Burma
engagement involves cooperative landmine eradication to promote reconciliation and peace. In
Kenya, CSO deployed a team in advance of the March 2013 elections in an effort to prevent a
repeat of the violence that surrounded elections in 2007-2008.

         The largest CSO engagement is in support of the moderate Syrian opposition. At the time
of this inspection, the monthly stipend that CSO had provided police trainees was suspended due
to inadequacies in the Department’s capacity to vet recipients. At the end of the inspection CSO
suspended its nonlethal assistance to the Free Syrian Army pending confirmation that this
assistance remained under the control of the appropriate parties. CSO was working to resolve
both of these issues at the policy level.

        The normal endpoint in CSO’s 12-18 month engagement period for Syria is approaching,
but national security priorities will likely result in CSO’s extended involvement. In this
engagement, CSO has filled important gaps in a top national security priority by providing
skilled personnel in response to urgent requirements.

Engagement Determination Process

         CSO has no consistent method of determining where it will engage. In some instances,
front office principals discuss future engagements directly with regional bureau counterparts. In
others, CSO staff meet with regional bureau and interagency colleagues to identify potential
conflicts and options to address them. In late 2012, CSO established an internal Future
Engagements Working Group to standardize the determination process. That group developed a
list of 103 potential conflict locations, which it narrowed to 44 that CSO deemed as meriting
attention. CSO needs a single, standard process to determine where to focus its efforts that
includes consulting with a wide range of experts and stakeholders to identify where and how the
U.S. Government should engage to prevent or mitigate conflict.


                                       11
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


         The Future Engagements Working Group provided standards and gave structure to
engagement selection. But geographic and functional bureaus and interagency partners were not
included in the process. Secretary Clinton’s January 2013 policy guidance cable emphasized
CSO’s ability to help Department bureaus and overseas posts achieve their conflict prevention
and stabilization objectives 7 . The cable notes that breaking cycles of violence requires “agile and
strategic interventions followed by focused longer-term engagement.” While CSO has the ability
to intercede, early consultations with others in the Department and interagency will help ensure
that its initial intervention is followed by the longer-term involvement of others.

Recommendation 7: The Bureau of Conflict and Stabilization Operations should develop and
implement a structured process for seeking input from Department of State and interagency
stakeholders at the beginning of its engagement selection process. (Action: CSO)

Transition of Operations

         CSO needs to guard against slipping into open-ended commitments. It pledges to produce
fast results in engagements that will last no longer than 18 months but has not included clear
transition plans in its engagement designs. For example, the Honduras engagement had no
transition plan in place until well beyond 18 months of CSO involvement. Unforeseen
circumstances may require adjustments, but CSO’s engagement design should reflect which
bureau, agency, governmental, or nongovernmental organization will ultimately assume
responsibility and work closely with that entity from the outset.

Recommendation 8: The Bureau of Conflict and Stabilization Operations should include an exit
strategy in the design of its engagements. (Action: CSO)

Engagement Team Staffing and Scheduling

        CSO staff frequently criticized the process for advertising and selecting staff for
engagement teams as lacking transparency. The operations teams, in coordination with bureau
leadership, manage staffing and deployment schedules. The current process has contributed to
low morale among CSO staff who are not selected for deployment but do not understand why, as
well as among those staff who are experiencing burn out from frequent deployments. The bureau
is aware of this problem and has taken some corrective steps to address it. A structured,
transparent process will reduce this problem.

        Informal Recommendation 1: The Bureau of Conflict and Stabilization Operations
        should establish and implement a structured, transparent process for announcing the
        formation of engagement teams and selecting staff for them.




7
 Cable 13 State 5660, “Secretary Clinton’s Eighth Policy Guidance Cable: Leveraging the Bureau of Conflict and
Stabilization Operations Capabilities to Prevent Conflict and Respond to Crisis.”

                                           12
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Efficiently Employing Resources

       CSO devotes a great deal of staff time and travel to designing and implementing
programs. The resources CSO employs sometimes appear out of proportion to the size and
budget of the program. Two engagements serve as examples:

       ●       In Honduras, CSO estimates the budget for its 2-year anti-violence program at $2
       million. Six CSO staff in Washington support the program. According to CSO data, in
       FY 2013, 28 CSO staff members made 58 trips to Honduras, collectively spending 2,837
       days there, at a cost of approximately $450,000. By contrast, USAID’s Office of
       Transition Initiatives employs one staff member in Washington and two in Honduras to
       oversee a similar but larger $12 million program.

       ●        In Nigeria, CSO estimates that its anti-violence program in the Niger Delta region
       will cost $5.6 million. The central component is a television series that will advocate
       nonviolent ways to address grievances. CSO estimates it will broadcast one hour of
       programming a week for 13 weeks. It hopes to complement the television series with
       support to community groups and local governments. CSO envisions maintaining three
       Washington-based staff members on long-term temporary duty assignments in Nigeria in
       FY2014 and hiring two more staff locally. It expects to devote up to eight staff—four to
       five full-time—in Washington to support the program. In August 2013, to prepare for the
       program and begin implementing it, CSO travelers spent 578 days in Nigeria at a cost in
       excess of $111,000.

Recommendation 9: The Bureau of Conflict and Stabilization Operations should implement a
procedure to balance the human and travel resources it employs to support its overseas programs
against the resources employed by other U.S. Government entities engaged in comparable
activities. (Action: CSO)

Program Implementation

         Several Department offices and other agencies work on issues similar to CSO’s. For
example, the Bureau of Democracy, Human Rights, and Labor promotes democracy and the rule
of law, including free and fair elections. The Bureau of International Narcotics and Law
Enforcement trains police. The Bureau of Near Eastern Affairs’ Middle East Partnership
Initiative manages programs that support democratic transition in the region. USAID has
experience, infrastructure, and programs in place in most nations facing conflict.

         USAID’s Office of Transition Initiatives has a mission statement almost identical to that
of CSO. CSO and the Office of Transition Initiatives have worked together on several
engagements with the participation of staff from both. The QDDR acknowledged that the
capabilities of USAID and the Department often overlap. But their efforts must be integrated, not
replicated. When asked about the imperative to engage in program activities overseas, many
CSO staff told the OIG team that the bureau needs to implement overseas programs to be
considered relevant and influential within the Department and interagency.

                                       13
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

          Other functional bureaus receive appropriated funds to support programming efforts
within their areas of responsibility and expertise. CSO considers its role to be different from that
of other agencies and bureaus, but it receives no appropriated foreign assistance funds. In order
to carry out programs, CSO must compete with others to access Section 1207 and reprogrammed
Economic Support Funds or other sources of funding. In this context, it is essential that CSO
fully coordinate with other entities to avoid duplication of effort, expenditures, and personnel. In
an era of scarce resources, CSO should compete for program resources only when no other
appropriate entity is available to implement a program deemed necessary to avoid or mitigate
conflict.

         CSO can adequately coordinate by consulting early and continuously with other
stakeholders. Before moving forward on a program, CSO should prepare an action memo cleared
by all stakeholders requesting the approval of The Office of the Under Secretary for Civilian
Security, Democracy, and Human Rights. The action memo should describe how CSO is
uniquely qualified to carry out a proposed program and how the program will address a national
security interest in a priority country.

Recommendation 10: The Under Secretary for Civilian Security, Democracy, and Human
Rights should require a fully cleared action memo from the Bureau of Conflict and Stabilization
Operations before approving a program activity. (Action: J, in coordination with CSO.)

Deployment Management

       The Deployment Management office was created to provide management support to
engagement teams, helping them deploy to overseas locations, often on short notice; support
them while they are overseas; and return them safely home.

        There are now three deployment management officers, each affiliated with one of the
operations teams. They have increased their level of operational support, especially with the
Nigeria deployment, in which two managers deployed with the team and set up a
management/support structure and procedures with the embassy or consulate general.

         Deployment management has a constant ”creative tension” with the operations teams,
which often include contractors who may have job-related knowledge and experience but lack
understanding of how the U.S. Government works. There is a useful training course at the
Foreign Service Institute to orient new Department staff to embassy operations, but CSO staff
are often not required to attend it. In addition, the bureau’s deployment handbook should include
sections on the need to follow Department procedures and regulations, how to plan travel
efficiently, and how to deal effectively with embassies and consulates.

       Informal Recommendation 2: The Bureau of Conflict and Stabilization Operations
       should require personnel to attend the Foreign Service Institute’s Introduction to Working
       in an Embassy course (PN113) before deployment.



                                        14
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Deployment Security Support

        A 2009 memorandum of agreement between the Bureau of Diplomatic Security and the
former S/CRS sets forth how the Bureau of Diplomatic Security is to support deployed teams.
Although there have been many subsequent exchanges of memoranda regarding this support,
there is no formal agreement for security support between the Bureau of Diplomatic Security and
CSO. Diplomatic Security special agents had been included in the CRC, but security support is
now provided by regional security officers in the field, augmented by temporary duty Diplomatic
Security special agents where needed.

Recommendation 11: The Bureau of Conflict and Stabilization Operations, in coordination with
the Bureau of Diplomatic Security, should establish a memorandum of agreement regarding
security support to deployed teams. (Action: CSO, in coordination with DS)




                                      15
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Resource Management
Financial and Human Resources
Bureau of Conflict and Stabilization Operations Staffing
                                                       When
             Foreign       Civil                                              Students/
   Staff                              Contractors     Actually    Detailees                 Total
             Service      Service                                              Interns
                                                     Employed

U.S. Staff
                19          87             56             3           0            4          169
Domestic

U.S. Staff
                0            0              0             0           0                        0
Overseas




Resources Controlled by the Bureau of Conflict and Stabilization Operations - FY 2013

                                                                                    Amount
Funding Description
                                                                                (in thousands)
State Operations
   Enduring                                                                         $21,594
   Carryover                                                                        $22,184
   Overseas Contingency Operational Funds                                            $8,075
Section 1207                                                                         $4,616
Foreign Assistance (451 Authority)                                                  $49,500
Total                                                                              $105,969

Management Support

        The functions under the deputy assistant secretary for Management Support and Civilian
Response are still being defined. With the drawdown of the Civilian Response Corps, the
remaining functions supporting the Civilian Response Network have been merged with the
existing Office of the Executive Director. A new GS-15 chief of the financial management
section recently came on board and is applying more discipline in budgeting and prioritization of
spending in line with CSO goals. The bureau plans to hire another GS-15 employee to oversee
human resources and administrative services, including deployment management and
information technology. Recent vacancies in financial management, information technology, and
general services have not been filled pending a bureau-wide evaluation of staffing.



                                       16
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        Despite transition challenges, customer satisfaction scores from personal questionnaires
for most services were average compared to other domestic bureaus OIG inspected. Scores for
office space and information technology support, however, were below average and represent
areas for improvement, along with more transparency in hiring and a stronger EEO program.

Grants Management

        Managing grants and cooperative agreements is a new responsibility for CSO, which
started implementing foreign assistance in 2012. The Office of Programs and Integration
coordinates with other bureau offices and the interagency to implement programs to support
CSO’s engagements. CSO does not have its own warranted grants officer, but is supported by an
experienced grants officer in the Office of Acquisitions Management, who provides close
oversight. This separation provides a valuable management control and objectivity in grants
administration, helping to counter pressure from within the bureau to expedite the grants process.
The grants officer assigned to CSO currently telecommutes from Moldova. This presents time
zone challenges, but she holds weekly teleconferences and travels to Washington and CSO
engagement sites periodically to monitor grants management activities. Under the watch of this
grants officer, CSO’s capacity to manage foreign assistance programs has progressed; however,
CSO needs to improve the way it oversees grants officer representatives, defines roles in the
grants management process, and conducts full and open competition.

        CSO does not have its own appropriated program funding, but has awarded more than
$54 million in Section 1207, Overseas Contingency Operations, Economic Support Funds, and
other foreign assistance for projects in nine different countries since 2012. More than $50 million
of the total is to train and equip the Syrian opposition, and CSO expects to award another $50
million to Syria-related programs in FY 2014. In an effort to make foreign assistance a
permanent tool in engagements, CSO’s Bureau Resource Request for FY 2015 requests $40
million in direct foreign assistance funding.

        Approximately 40 CSO employees have completed training required for certification as
grants officer representatives. Grants officer representatives are responsible for monitoring
implementers and ensuring grant money is used appropriately; however, CSO does not have a
mechanism to evaluate the performance of grants officers representatives in carrying out their
responsibilities as outlined in the Office of the Procurement Executive Grants Policy Directive
Number 16. Grants officer representative responsibilities are not included in employees’ work
commitments or work requirements. Employees should be held accountable for performance; lax
oversight of grants may result in waste of government funds.

Recommendation 12: The Bureau of Conflict and Stabilization Operations should include
grants officer representative responsibilities in employee work commitments or work
requirements for performance appraisals or evaluation reports. (Action: CSO)

         New program officers and grants officer representatives expressed confusion about their
roles, the role of the grants officer, and the role of the grantees. In addition, responsibilities are
not clearly delineated between the Office of Programs and Integration and the operations teams,
resulting in inefficient program management. The Office of Programs and Integration has written
                                        17
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


standard operating procedures and is currently drafting a program management manual.
According to 1 FAM 212.2-3, the Office of the Procurement Executive prescribes policies,
procedures, and standards for managing assistance agreements. Grants Policy Directive Number
34 outlines the Office of the Procurement Executive’s grants management review process. A
grants management review would help CSO improve its grants management procedures.

Recommendation 13: The Bureau of Administration should conduct a grants management
review of the Bureau of Conflict Stabilization Operations. (Action: A)

         Since beginning its grants program in 2012, CSO has awarded 80 percent of its grants
and cooperative agreements (representing 66 percent of total funding) with sole-source
justifications instead of full and open competition, as outlined in Grants Policy Directive 5,
Revision 4, from the Office of the Procurement Executive. Competition has been sidelined in the
rush to implement urgent programs. The QDDR promotes competition to “ensure that the U.S.
Government receives the best value and most innovative and effective solutions for [its] program
dollars.”

Recommendation 14: The Bureau of Conflict and Stabilization Operations, in coordination with
the Bureau of Administration, should use full and open competition for awarding grants and
cooperative agreements. (Action: CSO, in coordination with A)

Travel

        Comments in OIG interviews and personal questionnaires revealed that CSO lacks a
sound travel policy. Upper management frequently pushes back on regulations in an attempt to
find workarounds. This attitude encourages other travelers to do the same. Employees do not
read the guidance and regulations and sometimes try to avoid using contract carriers. They often
expect instantaneous processing from the bureau’s travel unit; the established rule is submission
of travel requests at least 5 to 7 work days before travel.

         Informal Recommendation 3: The Bureau of Conflict and Stabilization Operations
         should emphasize to staff, including front office staff, the importance of following travel
         regulations.

         Informal Recommendation 4: The Bureau of Conflict and Stabilization Operations
         should consolidate its travel procedures into an updated comprehensive travel policy.

        Seventy-five percent of CSO travelers travel only once or twice a year so they do not
have U.S. Government travel credit cards. The travel unit urges those who travel more than twice
a year to obtain and use travel credit cards, in accordance with 4 FAM 463.3-2. Not all CSO
employees who travel more than twice a year do so.

Recommendation 15: The Bureau of Conflict and Stabilization Operations should require
employees expecting to travel more than twice per year to use a government travel charge card
for official travel expenses. (Action: CSO)

                                         18
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


         For the fiscal year ending September 30, 2013, there were nine instances of business class
travel, usually for travel in excess of 14 hours. Spot checks indicated DS-4087 Business Class
Authorizations were on file. On September 20, 2013, CSO adopted a policy of no business class
travel, with rest stops authorized as necessary.

       The travel unit has developed standard operating procedures for the steps in travel
processing. However, it has received no formal training.

       Informal Recommendation 5: The Bureau of Conflict and Stabilization Operations
       should enroll travel unit staff in the Foreign Service Institute’s weeklong Travel Policy
       training course (GFS61 – Travel Policy).

        At the time of this inspection, 23 CSO travel vouchers were delinquent by more than 30
days. As required by 4 FAM 465.1, travelers are required to submit travel vouchers within 5
business days. Late filing delays the liquidation of travel advances and funding obligated against
travel orders.

Recommendation 16: The Bureau of Conflict and Stabilization Operations should require
travelers to file vouchers within 5 business days after completing travel. (Action: CSO)

        Many CSO employees commented in OIG personal questionnaires and interviews that
some front office travel to conferences and meetings, especially to Europe, appeared to be linked
more to personal interests than to the bureau’s mission. During FY 2013, CSO employees took
17 trips to the United Kingdom, 7 trips to Belgium, and 6 trips to Switzerland. In one case, the
PDAS and two other DASes were in London at the same time for different meetings.

         Justifications provided in the approved requests for travel authorization and invitational
travel often do not contain sufficient detail to link the trips directly to CSO goals. According to
14 FAM 533.4-1, authorizing officials must ensure that conference travel is necessary to
accomplish agency goals. Likewise, Department policy on gifts of invitational travel in 2 FAM
962.1-8e (1) (b) states that travel must relate to an employee’s official duties and represent
priority use of the traveling employee’s time. Without adequate justification, funds and staff time
devoted to travel and trip support could be wasted. More transparency in the travel approval
process also could increase staff understanding of the purpose of travel.

Recommendation 17: The Bureau of Conflict and Stabilization Operations should require
justifications linked to bureau goals for conference and meeting travel requests and approve only
those trips representing priority use of employee time. (Action: CSO)

Records Management and Clearance Process

Records Management

       CSO lacks an effective records management program. It does not have practices in place
for adequate records management, as required by 5 FAM 414.4. CSO produces an array of
documentation as part of its engagement efforts, including strategy documentation, email
                                        19
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


correspondence, and analytical papers, such as best practices and lessons learned. In addition,
CSO’s executive office creates a significant number of records to document staff changes,
deployments, financial, and other human resource matters.

       CSO does not have a uniform process for the storage and organization of files. Files and
records are stored in several locations, including the bureau’s network shared drive, SharePoint
document libraries, personal emails, and hard drives. Furthermore, official records are not always
dated or marked with appropriate classification markings. As a result, staff frequently
commented on the challenge of locating needed documentation for specific office assignments
and engagement activities. Staff also reported difficulty discerning what actions have occurred
during a clearance or review process, and how to archive the records.

         Records management is essential for CSO’s organization, functions, policies, and
operations. An adequate records management process ensures that institutional knowledge is
retained in organization and staffing changes. During the inspection, CSO began taking steps to
revamp its SharePoint site. While this progress is a step forward, it does not address the need to
establish a formal records management process.

Recommendation 18: The Bureau of Conflict and Stabilization Operations should implement a
records management process that articulates procedures for records identification, storage,
organization, and retention. (Action: CSO)

Clearance Process

         CSO has not followed Department procedures for drafting, clearing and documenting
policymakers’ decisions on important issues. Many documents in CSO files are drafts that were
never finalized or sent forward. Often when paper is sent forward, there is no copy in CSO files
reflecting the decision of the Department principal and the date it was signed.

        CSO staff produce considerable paper for the CSO front office. When there is a clearance
page, clearances reflected are often exclusively from CSO offices and rarely include dates. This
practice extends to documents that refer to views or actions taken by other bureaus or
individuals, such as ambassadors in countries where engagements may be proposed, leaving
open the possibility of misunderstanding. The impression created is that CSO is a bureau that
spends much time talking to itself, not the rest of the Department or the interagency.

        To minimize possibilities that Department principals are unaware of or misinformed
about the views of other bureaus or individuals, standard Department practice (2 FAM 1200) is
to clear such paper with bureaus and/or individuals with equities in an issue. This is especially
true of decision memoranda. A CSO front office decision to take a certain action that is not fully
cleared can put CSO staff in the awkward position of having to “sell” a course of action already
decided by their superiors to other bureaus. During the inspection, CSO held two sessions to
familiarize staff with Department drafting and clearance procedures, but more needs to be done
to ensure that drafting and clearing procedures meet the requirements of 2 FAM 1200.


                                        20
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Recommendation 19: The Bureau of Conflict and Stabilization Operations should train all staff
and require them to follow Department of State practices and procedures in drafting and clearing
official documents. (Action: CSO)

Human Resources

         CSO has a four-person human resources team. Because CSO does not have delegated
hiring authority, some processing is done by the Bureau of Administration’s Human Resources
Division, which is CSO’s shared services provider. The Human Resources Division provides
services including recruitment and employment of Civil Service employees, and employee
relations for both Foreign Service and Civil Service employees.

       The OIG team encountered a widespread belief within CSO that there is pressure from
upper management to tailor position descriptions and requirements to increase the chances of
favored candidates making the certification list for advertised positions. Often, good internal
candidates, even those who make the certification lists, seem to be ignored.

Recommendation 20: The Bureau of Human Resources should review the hiring practices used
by the Bureau of Conflict and Stabilization Operations and the Bureau of Administration, as its
service provider, for posting and filling positions to confirm that they comply with Department
of State regulations and legal requirements. (Action: DGHR)

         Since the establishment of CSO, there have been curtailments in six of its 15 Foreign
Service positions. The bureau had not been active in recruiting Foreign Service officers in the
past, but for the past cycle it actively campaigned for candidates with some success. According
to one study, 54 percent of CSO’s staff (direct hire and contractor) has turned over since the
reorganization. The human resources team has started conducting exit interviews with departing
staff to determine their reasons for leaving CSO.

Training

        Bureau training received positive comments from CSO staff . Staff in the Office of
Learning and Training have developed tailored training courses for CSO staff. Training includes
internal courses as well courses coordinated with the Foreign Service Institute. Evaluations for
both internal and external training are favorable.

Facilities

         In 2012, CSO closed its warehouse and office facility in Springfield (State Annex-18)
and offices in Rosslyn (State Annex-15), moving all staff to space on one floor of State Annex-3.
While the consolidation saved money and increased collaboration, it had a negative effect on
employee morale. Employees complain of noisy and cramped working conditions, which impair
their ability to draft documents and hold business conversations. This hurts overall office
efficiency. CSO was expected to move into permanent space at Navy Hill’s Potomac Annex by
late 2013; however, the anticipated move date has slipped to at least 2015 because of delays at
the General Services Administration. In the meantime, a CSO working group has proposed ways
                                       21
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


to rearrange existing cubicles in State Annex-3 for more privacy. Many employees work in
spaces smaller than the office standards established by the Office of Real Property Management,
referenced in 6 FAM 1711a. In addition, supervisors and human resources staff lack access to
private space for employee counseling.

Recommendation 21: The Bureau of Administration, in coordination with the Bureau of
Conflict and Stabilization Operations, should identify office space in State Annex-3 for
employee counseling and drafting until the bureau moves to permanent facilities. (Action: A, in
coordination with CSO)




                                       22
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



Management Controls

       The acting executive director serves as the management controls officer. As required by 2
FAM 022.7, the Assistant Secretary submitted CSO’s annual management control statement of
assurance in September 2013. The statement identified areas for improvement in performance
management, updating the bureau’s new organizational structure in the Foreign Affairs Manual,
and contract management. At the time of the inspection, CSO had made progress completing
performance management documents, with the Bureau of Human Resources Performance
Management Dashboard indicating 86 percent of Foreign Service work requirements and 81
percent of Civil Service performance plans completed.

Purchase Cards

         CSO has three purchase card holders authorized for procurements up to $3,000. CSO has
not conducted annual reviews of purchase card operations as required by 4 FAM 455.3a.(4) and
the Worldwide Purchase Card Program Manual. Annual reviews check compliance with
established procurement and financial management practices and enhance oversight to prevent
fraud and misuse. Employees were unaware of this requirement.

Recommendation 22: The Bureau of Conflict and Stabilization Operations should complete a
purchase card program annual review for FY 2013. (Action: CSO)

Management of Contractors

        At the time of the inspection, CSO had 56 third-party contractors on board, making up
approximately 33 percent of all staffing and 40 percent of existing staff costs. CSO does not have
contracting authority but works through the Office of Acquisitions Management to hire
personnel from contracts with nine different companies. The OIG team found weaknesses in
contractor oversight, security clearance, performance of inherently governmental functions, and
incomplete contracting officer’s representative files.

Oversight

         Two designated contracting officer’s representatives in the executive office manage all
contracts, and a third is in training. Oversight of the contractors is weak because the contracting
officer’s representatives do not work in the CSO office or foreign engagement locations where
most of the contractors work and do not have regular interaction with them. According to 14
FAM 222c.(2) and Department of State Acquisition Regulation 642.271, the contracting officer
may appoint a government technical monitor with proximity to the work site to assist the
contracting officer’s representative in monitoring a contractor’s performance. Inadequate
monitoring increases the risk of fraud, the receipt of poor quality services, and the possibility of
overpayments to contractors.




                                        23
                            SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


         Recommendation 23: The Bureau of Conflict and Stabilization Operations, in coordination with
         the Bureau of Administration, should identify government technical monitors to assist in
         monitoring contractors. (Action: CSO, in coordination with A)

         Security Clearance Vetting of Third-Party Contractors Prior to Hiring
[Redacted] (b) (5)




                 Homeland Security Policy Directive-12, Office of Management and Budget
         Memorandum 05-24, and the Department’s 12 FAM 577 require that all individuals requiring
         access to Federal facilities and information systems be favorably adjudicated for a national
         agency check, with inquiries, or an equivalent standard, such as a public trust determination or
         national security clearance. [Redacted] (b) (5)




         Recommendation 24: The Bureau of Conflict and Stabilization Operations, in coordination with
         the Bureau of Diplomatic Security, should ensure that third-party contractors are properly vetted
         prior to hiring. (Action: CSO, in coordination with DS)

         Inherently Governmental Functions

                 CSO contractors perform tasks similar or equal to those of direct-hire employees. Some
         appear to be performing inherently governmental functions, such as acting as a receiving officer
         or directing the work of a government employee as an engagement team leader, and representing
         the U.S. Government as a liaison with Congress. CSO does not have a mechanism to determine
         which job functions are suitable for contractors and which should be performed by direct- hire
         employees. According to 3 FAM 2164, each bureau is responsible for managing its workforce,
         with the guidance of the Bureau of Administration’s Commercial Services Management, to
         ensure that only government employees perform inherently governmental functions.
                                                24
                                    SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Recommendation 25: The Bureau of Conflict and Stabilization Operations, in coordination with
the Bureau of Administration, should review the bureau’s contract work to eliminate potentially
inherently governmental functions. (Action: CSO, in coordination with A)

Contract Files

        CSO contracting officer’s representatives do not maintain working files for each contract
that contain all the documents required by the Foreign Affairs Handbook (FAH), 14 FAH-2 H­
517, in an easily accessible format. Contracting officer’s representatives keep emails and other
materials on their personal computers instead of using shared drives or paper files. Without
complete consolidated files, important contract information may be lost and the transition to a
new contracting officer’s representative may be difficult.

Recommendation 26: The Bureau of Conflict and Stabilization Operations should maintain
complete contracting officer representative files. (Action: CSO)




                                       25
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



Information Technology Management 

         The information technology (IT) group had since 2011 to establish itself, yet it operates
much like a start-up organization that has not developed fundamental requirements, such as
management direction and documented policies and procedures. The OIG team found no
historical documentation from the previous S/CRS organization, nor any continuity among
management and oversight for the IT staff.

Information Technology Strategic Planning

         CSO lacks an IT strategic plan outlining the mission, objectives, and goals for its IT
operations. As a result, the staff behaves reactively, without adequate planning. Without an IT
strategic plan, there is no effective way to determine appropriate staffing levels for the IT group.
CSO has not defined IT’s role and responsibilities. Without such information, the OIG team
cannot comment on the adequacy of IT staffing levels or what the bureau might need in the
future to support IT operations. The acting IT manager recognized the deficiency and held an
off-site meeting with the IT staff to discuss these issues. According to documentation shared
during that meeting, the IT staff recognized many shortcomings, including the lack of strategic
planning.

        Guidance in 5 FAM 1013 describes an IT strategic plan as a long-term, high-level plan
that defines a systematic way for a bureau or office to use IT to accomplish mission and goals.
An IT strategic plan will enable CSO management to answer questions regarding what the IT
staff should be accomplishing, what they are accomplishing, and how well they are performing,
none of which CSO can do now. A plan will also help ensure that the work performed by the IT
group is in line with the overall CSO mission. The IT group was drafting an IT strategic plan but
had not completed the work at the time of the inspection.

Recommendation 27: The Bureau of Conflict and Stabilization Operations should establish an
information technology strategic plan outlining the mission, objectives, and short-term and long­
term goals for its information technology operations that aligns with the bureau’s strategic plan.
(Action: CSO)

Information Technology Management and Staff

Reporting Structure

        There is confusion within CSO and in the Department on the management reporting
structure among CSO’s IT staff. During the inspection, the OIG team learned of instances where
CSO staff approached different non-IT managers regarding their specific issues. Further, IT staff
are occasionally tasked by different CSO managers to perform an IT function. IRM
representatives informed the OIG team that they were unclear on CSO’s IT reporting structure, a
factor that affects their desktop support coordination under the Department’s IT consolidation.
With multiple CSO managers being approached with IT matters and with more than one
individual tasking the IT group, CSO lacks a single voice to advocate the bureau’s IT needs.

                                        26
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


        A draft notice detailing the reporting structure for the IT group and the appropriate points
of contact for IT assistance was produced but not approved during the course of the OIG
inspection.

Recommendation 28: The Bureau of Conflict and Stabilization Operations should disseminate
to bureau staff and appropriate Department of State bureaus a notice detailing the management
reporting structure for the information technology group and a single point of contact for all
information technology related matters. (Action: CSO)

Information Technology Leadership

         CSO’s front office has struggled with the management of the IT staff. With the lead IT
specialist on extended leave, the IT staff is temporarily reporting to the director of administrative
services. However, this individual’s range of responsibilities includes many other general service
areas besides IT, resulting in the IT staff not receiving the management attention that they need.
Furthermore, CSO placed a junior IT specialist as acting deputy IT lead. That individual does not
have previous experience managing an IT operation. The absence of a full-time, experienced IT
manager has hindered the IT staff’s ability to address deficiencies that have lingered for more
than 2 years.

         As stated in 5 FAM 620, an experienced IT manager should assist CSO in establishing
priorities and developing an implementation plan to achieve them. CSO management has held
discussions with Department officials about the need for a senior IT specialist to lead the IT
group, including possible solutions, such as hiring an experienced when actually employed
annuitant or backfilling the current IT lead position.

Recommendation 29: The Bureau of Conflict and Stabilization Operations should fill the
information technology lead position with an individual who has knowledge, skills, and
experience managing information technology operations. (Action: CSO)

Position Descriptions

         The position descriptions of the full-time IT staff members and IT contractors do not
reflect their current responsibilities. For example, the position description of the director of
administrative services has not been revised to include his temporary responsibilities of
managing the IT staff. The acting deputy IT lead’s position description does not list his various
management responsibilities or include the increased scope of IT areas under his purview. The
work statement for the IT contractors does not include the helpdesk support functions they
provide CSO staff. As stated in 3 FAM 2637.7, accurate position descriptions should ensure that
each IT staff member is being evaluated against his or her proper responsibilities and enable
CSO management to assess each individual’s performance.

Recommendation 30: The Bureau of Conflict and Stabilization Operations should update the
position descriptions of all full-time information technology staff, and the statement of work for
information technology contract staff, to reflect current responsibilities. (Action: CSO)

                                        27
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Training Curriculum and IDP

          With technology constantly evolving, it is important for IT professionals to stay current
with regulations. The OIG team observed that the CSO IT staff are unfamiliar with many
standard Federal regulations on information management and security. Without adequate
knowledge and skills, the IT operations of CSO will not work well. Individual development
plans and tailored training curricula for the IT staff would assist CSO management in identifying
the required knowledge and skills to support IT operations, and establish a baseline for future
staffing.

Recommendation 31: The Bureau of Conflict and Stabilization Operations should establish a
training curriculum and individual development plans for its information technology staff.
(Action: CSO)

Information Management and Security Documentation

        CSO’s IT group lacks basic information management and security documentation,
including standard operating procedures, such as access control policies, account creation and
email setup procedures, system backup and restore policies, and IT change control procedures.
[Redacted] (b) (5)
                                                            Without such documentation, IT
operations function in an ad hoc manner resulting in a reactive approach to IT operations. The
lack of documented processes can exacerbate staffing shortages and absences. Since 2011, CSO
management has failed to correct this shortcoming.

Recommendation 32: The Bureau of Conflict and Stabilization Operations should develop and
implement required information management and security documentation to include standard
operating procedures and key emergency preparedness documentation. (Action: CSO)

Information Technology Consolidation

       CSO spends a considerable amount of staff time and bureau resources supporting their
desktop services. Responsibility for CSO’s desktop support services was transferred to the
Bureau of Information Resource Management when S/CRS completed IT consolidation in 2007.
However, current CSO IT staff still supports desktop issues. According to CSO IT
documentation, two contract IT staff members spend 80 percent of their time resolving desktop
support issues.

       Furthermore, CSO currently pays twice for the same desktop support. It pays IRM $1,790
per workstation, which costs the bureau approximately $470,000 to support 263 workstations. At
the same time, CSO pays a combined expense of $275,000 for the two contractors who provide
desktop support. This double expenditure is wasteful.

       The OIG team also observed a lack of clarity among CSO and IRM desktop technicians
on responsibilities for the bureau’s desktop support. Some of the IT staff indicated they were not
aware whether the bureau was consolidated, a key piece of information that should be known by
                                        28
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


all CSO IT staff. IRM’s desktop technicians resolve trouble tickets as they are assigned to them,
noting to the OIG team that this occasionally duplicates work being done by CSO staff.

        A service level agreement was signed in August 2007 between IRM and CSO’s
predecessor S/CRS. The agreement discusses the responsibilities of both parties at that time, as
well as related costs. However, the agreement has not been revised since 2007 to reflect the
current bureau organization or IT environment. A revised service level agreement will ensure
that both parties are aware of their responsibilities and that associated costs are a true reflection
of IT equipment and support services provided.

Recommendation 33: The Bureau of Conflict and Stabilization Operations, in coordination with
the Bureau of Information Resource Management, should update its 2007 service level
agreement to reflect current roles and responsibilities for desktop support, inventory of
information technology equipment, and associated costs. (Action: CSO, in coordination with
IRM)

        The CSO IT staff has a helpdesk ticket system on SharePoint to document IT issues faced
by CSO staff; however, the system is not regularly used. CSO IT staff reported that
approximately 50 percent of reported issues are being documented into the helpdesk system.
CSO staff do not follow a defined procedure for reporting issues. Personnel normally request
assistance, either by calling or personally visiting a specific CSO IT staff member. Without
adequate reporting, CSO is unable to determine the level of support they are providing. This
affects the bureau’s ability to determine appropriate IT staffing levels and creates an overlap with
IRM-provided services. Further, it detracts from CSO’s ability to determine larger systemic
issues that may require other Department bureaus’ assistance.

Recommendation 34: The Bureau of Conflict and Stabilization Operations should disseminate
and enforce a policy requiring use of the information technology help desk system. (Action:
CSO)

Information Technology Equipment for Deployed Teams

        The IT section provides and maintains IT equipment for CSO deployed teams.
Individuals deployed as part of CSO’s engagements are typically provided a Department-issued
laptop and BlackBerry device. Engagement team members are told by the IT staff and
engagement team leaders that they should not use personal computers. [Redacted] (b) (5)




Recommendation 35: The Bureau of Conflict and Stabilization Operations should ban the use
of personal devices for Department of State work during deployments. (Action: CSO)

                                         29
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Further, CSO does not have a formal policy for deployed teams regarding the allowable
use of IT equipment, security requirements, and check-in/check-out procedures. These issues are
discussed verbally. The OIG team also found that several CSO IT staff did not return issued IT
equipment to CSO immediately after returning from deployment, forcing IT staff to track them
down to obtain the equipment.

Recommendation 36: The Bureau of Conflict and Stabilization Operations should disseminate a
formal policy on the use of information technology equipment during deployments to include
guidance on allowable use, security requirements, and check-in/check-out procedures. (Action:
CSO)

Information Systems Security Officer Duties

        CSO does not have designated information system security officers performing required
information security responsibilities. The primary information systems security officer has been
on extended leave since January 2013; his return date was unknown. The assigned alternate
information systems security officer completed necessary training in February 2013, but had yet
to receive a designation letter. The alternate information systems security officer has not
performed any information systems security officer-related functions in the interim. IRM’s
Information Systems Security Officer program office remotely monitors CSO workstations as
part of the IT consolidation; however, an appointed information systems security officer within
the bureau enables CSO to have an individual perform information security checks and necessary
monitoring of staff on a regular basis.

Recommendation 37: The Bureau of Conflict and Stabilization Operations should designate a
primary and alternate information systems security officer. (Action: CSO)

Web Site/SharePoint Sites Management

          CSO lacks a defined content management process for its Web and SharePoint sites, as
well as uniformity in the organization, naming conventions, and appearance of those sites. Many
CSO staff responded in personal questionnaires that the SharePoint sites are difficult to use and
that it is hard to locate needed information. CSO management also conveyed to the OIG team
that the Web sites do not adequately reflect CSO’s work and vision to the public.

        CSO IT staff documented their thoughts on the strengths and weaknesses of the
SharePoint site and bureau Web sites. In that analysis, one strength is CSO personnel’s
assistance with, and cooperation in, discussing needed changes to the sites. Weaknesses include
the inconsistent layout of each site page in terms of organization, color choices, and font size.
Furthermore, the content of each site does not clearly identify major headings or subheadings.
Most importantly, the content on each site needs updating with accurate and dynamic
information with the assistance of identified content managers from each office.

        During the inspection, CSO took the first necessary step and identified primary content
managers for each office. The CSO IT group anticipated the content for each site to be updated
by the end of November 2013. While the identification of content managers is the right step
                                        30
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


forward, CSO will continue to experience issues with its Web sites and SharePoint sites until
defined processes for content management and site management are completed and enforced in
accordance with 5 FAM 770 and 5-FAH-8 H-610.

Recommendation 38: The Bureau of Conflict and Stabilization Operations should implement a
content management process that defines procedures for updating content and explains the
responsibilities of the information technology group and other bureau offices. (Action: CSO)

Recommendation 39: The Bureau of Conflict and Stabilization Operations should develop a
design framework to improve its SharePoint sites and Web sites. (Action: CSO)

Civilian Response Network Database

        [Redacted] (b) (5)


                                                                                        CSO
operates the Civilian Response Network database to network with private enterprises,
government institutions, and individuals with worldwide access to expertise to assist the bureau
in staffing engagements with skilled talent. The database houses personal and medical
information on a range of individuals, which helps CSO management staff engagements quickly.
[Redacted] (b) (5)




Recommendation 40: The Bureau of Conflict and Stabilization Operations, in coordination with
the Bureau of Information Resource Management and the Bureau of Administration, should
conduct a certification and accreditation of the Civilian Response Network database to include
risk assessments and privacy impact assessments. (Action: CSO, in coordination with IRM and
A)




                                         31
                             SENSITIVE BUT UNCLASSIFIED
                                           SENSITIVE BUT UNCLASSIFIED



            Security Management

                     The executive office is not in compliance with Department security requirements.
            According to 12 FAM 512.2, “The executive director of each bureau, and each regional security
            officer, must maintain the program designed to ensure compliance with the provisions of these
            [the Department’s] regulations.” The acting deputy executive director, principal unit security
            officer, and bureau security officer must work cohesively to implement domestic security policy
            and enforce regulations.
[Redacted] (b) (5)




                     In addition, the bureau’s unit security officers were not aware of their roles and
            responsibilities, outlined in 12 FAM 563.2, nor were they aware of the Diplomatic Security
            guidebook on Principal Duties of a Unit Security Officer, dated July 2011. The front office must
            set the standard for other offices to comply with Department security standards. It should work in
            coordination with the executive office rather than in conflict with it.

            Recommendation 41: The Bureau of Conflict and Stabilization Operations should implement a
            domestic security program that meets Department of State physical and procedural security
            standards. (Action: CSO)

            Bureau Security Officer Support

                    The Bureau of Diplomatic Security has assigned a bureau security officer responsibility
            for both CSO and the Bureau of Consular Affairs. His duties include implementing all security
            regulations and advising the executive directors of each bureau on procedures and controls for
            safeguarding classified and administratively controlled information. CSO is not making full use

            8
              Physical Security Standards for Department of State Domestic Occupied Space, June 28, 2010, Chapter 14,
            Classified Processing/Closed Storage Areas, Access Control



                                                       32
                                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


of the bureau security officer’s talents and services. A misunderstanding of the bureau security
officer’s role and responsibilities has led to a problematic relationship between the CSO front
office and executive office and the bureau security officer.

        The Bureau of Diplomatic Security’s Application and Programs Division is in the process
of creating a memorandum of agreement with Department bureaus that will define bureau
security officer support and assistance. The memorandum will clarify roles and responsibilities
for each activity and should strengthen CSO’s security program.

Recommendation 42: The Bureau of Conflict and Stabilization Operations, in coordination with
the Bureau of Diplomatic Security, should complete a memorandum of agreement on bureau
security officer support. (Action: CSO, in coordination with DS)

        The bureau security officer is not physically located within CSO’s office space. The
Bureau of Consular Affairs is large and understandably requires a great amount of the bureau
security officer’s time. However, if the bureau security officer is not working at CSO, at least
part time, he will not be able to monitor and gauge any improvements in its security program.

Recommendation 43: The Bureau of Conflict and Stabilization Operations, in coordination with
the Bureau of Diplomatic Security, should require the bureau security officer to maintain a
regular, part-time physical presence in the Bureau of Conflict and Stabilization Operations.
(CSO, in coordination with DS)




                                        33
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



List of Recommendations

Recommendation 1: The Office of the Under Secretary for Civilian Security, Democracy and
Human Rights, in coordination with the Bureau of Conflict and Stabilization Operations and the
Office of the Legal Adviser, should define the meaning of “whole-of-government” approach to
conflict prevention and resolution. (Action: J, in coordination with CSO and L)

Recommendation 2: The Bureau of Conflict and Stabilization Operations, in coordination
with the Office of the Under Secretary for Civilian Security, Democracy, and Human Rights,
should update its mandate, mission, and goals and develop a strategic communication plan to
update bureaus, embassies, and agencies in advance of the 2014 Quadrennial Diplomacy and
Development Review. (Action: CSO, in coordination with J)

Recommendation 3: The Bureau of Human Resources should direct the Office of Resource
Management and Organizational Analysis to perform an organization assessment of the Bureau
of Conflict and Stabilization Operations, including a workforce and workload analysis and a
review of similar functions performed by other bureaus in the Department. (Action: DGHR)

Recommendation 4: The Bureau of Human Resources, in coordination with the Bureau of
Conflict and Stabilization Operations, should reduce the bureau’s front office staff to no more
than two deputy assistant secretary positions and the principal deputy, including one Senior
Foreign Service officer. (Action: DGHR, in coordination with CSO)

Recommendation 5: The Office of Civil Rights, in coordination with the Bureau of Conflict
and Stabilization Operations, the Bureau of Human Resources, and the Foreign Service Institute,
should develop a tailored leadership management seminar for mandatory attendance by the front
office team. (Action: S/OCR, in coordination with CSO, DGHR, and FSI)

Recommendation 6: The Bureau of Conflict and Stabilization Operations, in coordination
with the Office of Civil Rights, should issue a statement from the Assistant Secretary stressing
commitment to EEO principles; conduct onsite training on EEO principles and procedures for all
employees; and implement a mechanism to track EEO training. (Action: CSO, in coordination
with S/OCR)

Recommendation 7: The Bureau of Conflict and Stabilization Operations should develop and
implement a structured process for seeking input from Department of State and interagency
stakeholders at the beginning of its engagement selection process. (Action: CSO)

Recommendation 8: The Bureau of Conflict and Stabilization Operations should include an
exit strategy in the design of its engagements. (Action: CSO)

Recommendation 9: The Bureau of Conflict and Stabilization Operations should implement a
procedure to balance the human and travel resources it employs to support its overseas programs
against the resources employed by other U.S. Government entities engaged in comparable
activities. (Action: CSO)


                                       34
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Recommendation 10: The Under Secretary for Civilian Security, Democracy, and Human
Rights should require a fully cleared action memo from the Bureau of Conflict and Stabilization
Operations before approving a program activity. (Action: J, in coordination with CSO.)

Recommendation 11: The Bureau of Conflict and Stabilization Operations, in coordination
with the Bureau of Diplomatic Security, should establish a memorandum of agreement regarding
security support to deployed teams. (Action: CSO, in coordination with DS)

Recommendation 12: The Bureau of Conflict and Stabilization Operations should include
grants officer representative responsibilities in employee work commitments or work
requirements for performance appraisals or evaluation reports. (Action: CSO)

Recommendation 13: The Bureau of Administration should conduct a grants management
review of the Bureau of Conflict Stabilization Operations. (Action: A)

Recommendation 14: The Bureau of Conflict and Stabilization Operations, in coordination
with the Bureau of Administration, should use full and open competition for awarding grants and
cooperative agreements. (Action: CSO, in coordination with A)

Recommendation 15: The Bureau of Conflict and Stabilization Operations should require
employees expecting to travel more than twice per year to use a government travel charge card
for official travel expenses. (Action: CSO)

Recommendation 16: The Bureau of Conflict and Stabilization Operations should require
travelers to file vouchers within 5 business days after completing travel. (Action: CSO)

Recommendation 17: The Bureau of Conflict and Stabilization Operations should require
justifications linked to bureau goals for conference and meeting travel requests and approve only
those trips representing priority use of employee time. (Action: CSO)

Recommendation 18: The Bureau of Conflict and Stabilization Operations should implement
a records management process that articulates procedures for records identification, storage,
organization, and retention. (Action: CSO)

Recommendation 19: The Bureau of Conflict and Stabilization Operations should train all
staff and require them to follow Department of State practices and procedures in drafting and
clearing official documents. (Action: CSO)

Recommendation 20: The Bureau of Human Resources should review the hiring practices
used by the Bureau of Conflict and Stabilization Operations and the Bureau of Administration, as
its service provider, for posting and filling positions to confirm that they comply with
Department of State regulations and legal requirements. (Action: DGHR)

Recommendation 21: The Bureau of Administration, in coordination with the Bureau of
Conflict and Stabilization Operations, should identify office space in State Annex-3 for
employee counseling and drafting until the bureau moves to permanent facilities. (Action: A, in
coordination with CSO)

                                       35
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Recommendation 22: The Bureau of Conflict and Stabilization Operations should complete a
purchase card program annual review for FY 2013. (Action: CSO)

Recommendation 23: The Bureau of Conflict and Stabilization Operations, in coordination
with the Bureau of Administration, should identify government technical monitors to assist in
monitoring contractors. (Action: CSO, in coordination with A)

Recommendation 24: The Bureau of Conflict and Stabilization Operations, in coordination
with the Bureau of Diplomatic Security, should ensure that third-party contractors are properly
vetted prior to hiring. (Action: CSO, in coordination with DS)

Recommendation 25: The Bureau of Conflict and Stabilization Operations, in coordination
with the Bureau of Administration, should review the bureau’s contract work to eliminate
potentially inherently governmental functions. (Action: CSO, in coordination with A)

Recommendation 26: The Bureau of Conflict and Stabilization Operations should maintain
complete contracting officer representative files. (Action: CSO)

Recommendation 27: The Bureau of Conflict and Stabilization Operations should establish an
information technology strategic plan outlining the mission, objectives, and short-term and long­
term goals for its information technology operations that aligns with the bureau’s strategic plan.
(Action: CSO)

Recommendation 28: The Bureau of Conflict and Stabilization Operations should disseminate
to bureau staff and appropriate Department of State bureaus a notice detailing the management
reporting structure for the information technology group and a single point of contact for all
information technology related matters. (Action: CSO)

Recommendation 29: The Bureau of Conflict and Stabilization Operations should fill the
information technology lead position with an individual who has knowledge, skills, and
experience managing information technology operations. (Action: CSO)

Recommendation 30: The Bureau of Conflict and Stabilization Operations should update the
position descriptions of all full-time information technology staff, and the statement of work for
information technology contract staff, to reflect current responsibilities. (Action: CSO)

Recommendation 31: The Bureau of Conflict and Stabilization Operations should establish a
training curriculum and individual development plans for its information technology staff.
(Action: CSO)

Recommendation 32: The Bureau of Conflict and Stabilization Operations should develop and
implement required information management and security documentation to include standard
operating procedures and key emergency preparedness documentation. (Action: CSO)

Recommendation 33: The Bureau of Conflict and Stabilization Operations, in coordination
with the Bureau of Information Resource Management, should update its 2007 service level
agreement to reflect current roles and responsibilities for desktop support, inventory of

                                        36
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


information technology equipment, and associated costs. (Action: CSO, in coordination with
IRM)

Recommendation 34: The Bureau of Conflict and Stabilization Operations should disseminate
and enforce a policy requiring use of the information technology help desk system. (Action:
CSO)

Recommendation 35: The Bureau of Conflict and Stabilization Operations should ban the use
of personal devices for Department of State work during deployments. (Action: CSO)

Recommendation 36: The Bureau of Conflict and Stabilization Operations should disseminate
a formal policy on the use of information technology equipment during deployments to include
guidance on allowable use, security requirements, and check-in/check-out procedures. (Action:
CSO)

Recommendation 37: The Bureau of Conflict and Stabilization Operations should designate a
primary and alternate information systems security officer. (Action: CSO)

Recommendation 38: The Bureau of Conflict and Stabilization Operations should implement
a content management process that defines procedures for updating content and explains the
responsibilities of the information technology group and other bureau offices. (Action: CSO)

Recommendation 39: The Bureau of Conflict and Stabilization Operations should develop a
design framework to improve its SharePoint sites and Web sites. (Action: CSO)

Recommendation 40: The Bureau of Conflict and Stabilization Operations, in coordination
with the Bureau of Information Resource Management and the Bureau of Administration, should
conduct a certification and accreditation of the Civilian Response Network database to include
risk assessments and privacy impact assessments. (Action: CSO, in coordination with IRM and
A)

Recommendation 41: The Bureau of Conflict and Stabilization Operations should implement
a domestic security program that meets Department of State physical and procedural security
standards. (Action: CSO)

Recommendation 42: The Bureau of Conflict and Stabilization Operations, in coordination
with the Bureau of Diplomatic Security, should complete a memorandum of agreement on
bureau security officer support. (Action: CSO, in coordination with DS)

Recommendation 43: The Bureau of Conflict and Stabilization Operations, in coordination
with the Bureau of Diplomatic Security, should require the bureau security officer to maintain a
regular, part-time physical presence in the Bureau of Conflict and Stabilization Operations.
(CSO, in coordination with DS)




                                       37
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Bureau of Conflict and Stabilization Operations should
establish and implement a structured, transparent process for announcing the formation of
engagement teams and selecting staff for them.

Informal Recommendation 2: The Bureau of Conflict and Stabilization Operations should
require personnel to attend the Foreign Service Institute’s Introduction to Working in an
Embassy course (PN113) before deployment.

Informal Recommendation 3: The Bureau of Conflict and Stabilization Operations should
emphasize to staff, including front office staff, the importance of following travel regulations.

Informal Recommendation 4: The Bureau of Conflict and Stabilization Operations should
consolidate its travel procedures into an updated comprehensive travel policy.

Informal Recommendation 5: The Bureau of Conflict and Stabilization Operations should
enroll travel unit staff in the Foreign Service Institute’s weeklong Travel Policy training course
(GFS61 – Travel Policy).




                                        38
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Principal Officials
                                                             Name Arrival Date
Assistant Secretary                                    Rick Barton       4/3/12
Principal Deputy Assistant Secretary                   Erin Barclay     11/4/13
 Director of Programs and Integration             Elizabeth Carroll     7/19/10
Deputy Assistant Secretary – Overseas
Operations                                        Karin von Hippel      2/26/12
 Director, Overseas Operations 1
                      Win Dayton        7/1/13
 Director, Overseas Operations 2
                      Neal Krigel/     10/7/12
                                                      Steve Kontos       9/5/12
                                                           (Acting)
 Director, Overseas Operations 3                 Jason Lewis-Berry      5/14/13
Deputy Assistant Secretary – Policy,
Partnership, and Training                              Jerry White      3/12/12
 Director, Office of Partnership and Strategic
Communication                                     Raphael Carland       8/12/12
 Director, Office of Learning and Training          Jason Ladnier       9/17/07
 Director, Office of Policy                          Cindy Huang         6/3/12
Deputy Assistant Secretary, Management
Support and Civilian Response Network               Dolores Brown        1/3/12
 Director, Executive Office                         Roberto Brady        9/4/12




                                        39
                            SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Figure 1 - Bureau Organization

             1 FAM 471.2 

 BUREAU OF CONFLICT AND STABILIZATION

           OPERATIONS (CSO)

                 (CT:ORG-256;    01-13-2012)




                            40
                SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CRC              Civilian Response Corps

CSO              Bureau of Conflict and Stabilization Operations

Department       Department of State

DGHR             Bureau of Human Resources

EEO              Equal Employment Opportunity

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

IT               Information technology

NSPD-44          National Security Presidential Directive 44

OIG              Office of Inspector General

QDDR             Quadrennial Diplomacy and Development Review

S/CRS            Office of the Coordinator for Reconstruction and Stabilization

USAID            U.S. Agency for International Development




                            41
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED





 FRAUD, WASTE, ABUSE,

 OR MISMANAGEMENT

OF FEDERAL PROGRAMS

   HURTS EVERYONE.


          CONTACT THE

  OFFICE OF INSPECTOR GENERAL

             HOTLINE

       TO REPORT ILLEGAL

    OR WASTEFUL ACTIVITIES:



            202-647-3320

            800-409-9926

        oighotline@state.gov

            oig.state.gov



   Office of Inspector General

    U.S. Department of State

         P.O. Box 9778

      Arlington, VA 22219





 SENSITIVE BUT UNCLASSIFIED

